No. 20-826

IN THE

Supreme Court of the United States
MIKE BROWN, Acting Warden,
Petitioner,
vs.
ERVINE DAVENPORT,
Respondent.

On Writ of Certiorari to the
United States Court of Appeals for
the Sixth Circuit
BRIEF AMICUS CURIAE OF THE
CRIMINAL JUSTICE LEGAL FOUNDATION
IN SUPPORT OF PETITIONER

KENT S. SCHEIDEGGER
KYMBERLEE C. STAPLETON
Counsel of Record
Criminal Justice Legal Fdn.
2131 L Street
Sacramento, CA 95816
(916) 446-0345
briefs@cjlf.org
Attorneys for Amicus Curiae
Criminal Justice Legal Foundation

QUESTION PRESENTED
May a federal habeas court grant relief based solely
on its conclusion that the Brecht v. Abrahamson test is
satisfied, as the Sixth Circuit held, or must the court
also find that the state court’s Chapman v. California
application was unreasonable under 28 U. S. C.
§ 2254(d)(1).

(i)

TABLE OF CONTENTS
Question presented.. . . . . . . . . . . . . . . . . . . . . . . . . . . . i
Table of authorities. . . . . . . . . . . . . . . . . . . . . . . . . . . iv
Interest of amicus curiae. . . . . . . . . . . . . . . . . . . . . . . 1
Summary of facts and case.. . . . . . . . . . . . . . . . . . . . . 2
Summary of argument. . . . . . . . . . . . . . . . . . . . . . . . . 4
Argument. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5
I.

State courts and federal courts share jurisdiction
over federal questions and their judgments are
entitled to mutual respect from the other. . . . . 5
A. The coequal state courts. . . . . . . . . . . . . . . . . 5
B. State courts and harmless error. . . . . . . . . . . 7

II.

AEDPA demands deference to be given to
federal claims adjudicated on the merits in
state court. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10
A. Collateral review and harmless error. . . . . . 10
B. Davis v. Ayala. . . . . . . . . . . . . . . . . . . . . . . . . 17

III. Section 2254(d) should be regarded as a
threshold question and decided at the beginning
of the habeas case, absent a strong reason in
judicial efficiency to do otherwise. . . . . . . . . . . 20
A. Order of decision rules.. . . . . . . . . . . . . . . . . 20
B. Order of decision and AEDPA.. . . . . . . . . . . 23
Conclusion.. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 26

(iii)

iv

TABLE OF AUTHORITIES
Cases
Arizona v. Fulminante, 499 U. S. 279 (1991). . . . . 8, 9
Ashwander v. TVA, 297 U. S. 288 (1936). . . . . . . . . 21
Atlantic Coast Line R. Co. v. Locomotive Engineers,
398 U. S. 281 (1970). . . . . . . . . . . . . . . . . . . . . . . . . 6
Berghuis v. Thompkins, 560 U. S. 370 (2010). . . . . 24
Bobby v. Dixon, 565 U. S. 23 (2011). . . . . . . . . . . . . 13
Brecht v. Abrahamson, 507 U. S. 619
(1993). . . . . . . . . . . . . . . . . . . . . . . . . . . 2, 3, 9, 10, 12
Brumfield v. Cain, 576 U. S. 305 (2015).. . . . . . . . . 25
Burt v. Titlow, 571 U. S. 12 (2013). . . . . . . . . . . . 6, 11
Calderon v. Coleman, 525 U. S. 141 (1998). . . . . . . 12
Caspari v. Bohlen, 510 U. S. 383 (1994). . . . . . . . 6, 21
Chapman v. California, 386 U. S. 18 (1967).. . . . . . . 8
Cullen v. Pinholster, 563 U. S. 170
(2011). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13, 19, 23
Davis v. Ayala, 576 U. S. 257
(2015). . . . . . . . . . . . . . . . . . . . . . . . 12, 17, 18, 20, 25
Deck v. Missouri, 544 U. S. 622 (2005). . . . . . . . . . . . 8
Edwards v. Vannoy, 593 U. S. __, 141 S. Ct. 1547
(2021). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10
Engle v. Isaac, 456 U. S. 107 (1982). . . . . . . . . . . . 5, 6

v

Fry v. Pliler, 551 U. S. 112 (2007). . . . . . 12, 14, 15, 16
Greene v. Fisher, 565 U. S. 34 (2011). . . . . . . . . . . . 11
Harrington v. Richter, 562 U. S. 86
(2011). . . . . . . . . . . . . . . . . . . . . . . . . . . 11, 13, 16, 18
Kirtsaeng v. John Wiley & Sons, Inc., 568 U. S. 519
(2013). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16
Kline v. Burke Constr. Co., 260 U. S. 226 (1922). . . . 6
Lockyer v. Andrade, 538 U. S. 63 (2003).. . . . . . . . . 13
Mapp v. Ohio, 367 U. S. 643 (1961).. . . . . . . . . . . . . 22
Mitchell v. Esparza, 540 U. S. 12 (2003).. . . . . . . . . 13
Pearson v. Callahan, 555 U. S. 223 (2009). . . . . . . . 22
Penry v. Lynaugh, 492 U. S. 302 (1989). . . . . . . . . . 21
People v. Davenport, 488 Mich. 1054, 794 N. W. 2d
616 (2011). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9
Robb v. Connolly, 111 U. S. 624 (1884).. . . . . . . . . . . 6
Ruhrgas AG v. Marathon Oil Co., 526 U. S. 574
(1999). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21
Saucier v. Katz, 533 U. S. 194 (2001). . . . . . . . . . . . 21
Sawyer v. Smith, 497 U. S. 227 (1990). . . . . . . . . . . . 7
Schriro v. Landrigan, 550 U. S. 465 (2007). . . . . . . 23
Steel Co. v. Citizens for a Better Environment,
523 U. S. 83 (1998). . . . . . . . . . . . . . . . . . . . . . . . . 20
Strickland v. Washington, 466 U. S. 668
(1984). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 22, 24

vi

Tafflin v. Levitt, 493 U. S. 455 (1990).. . . . . . . . . . . . 7
Teague v. Lane, 489 U. S. 288 (1989). . . . . . . . . . . . 21
United States v. Leon, 468 U. S. 897 (1984). . . . . . . 22
Whatley v. Warden, 593 U. S. __, 141 S. Ct. 1299
(No. 20-363, April 19, 2021). . . . . . . . . . . . . . . . . . 15
Williams v. Taylor, 529 U. S. 362 (2000). . . . . . . . . 11
Woodford v. Garceau, 538 U. S. 202 (2003). . . . . . . 11
Woodford v. Visciotti, 537 U. S. 19 (2002). . . . . . . . . 7
United States Constitution
U. S. Const., Amend. X.. . . . . . . . . . . . . . . . . . . . . . . . 6
U. S. Const., Art. III, § 1.. . . . . . . . . . . . . . . . . . . . . . . 6
United States Statutes
28 U. S. C. § 2254(a). . . . . . . . . . . . . . . . . . . . . . . . . 10
28 U. S. C. § 2254. . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
28 U. S. C. § 2254(d)(1).. . . . . . . . . . . . . . . . . . . . . . . 11
Secondary Authorities
Dodson, Habeas Review of Perfunctory State Court
Decisions on the Merits, 29 Am. J. Crim. L. 223
(2002). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11
Scheidegger, Habeas Corpus, Relitigation, and the
Legislative Power, 98 Colum. L. Rev. 888
(1998). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6, 7, 10

IN THE

Supreme Court of the United States
MIKE BROWN, Acting Warden,
Petitioner,
vs.
ERVINE DAVENPORT,
Respondent.
BRIEF AMICUS CURIAE OF THE
CRIMINAL JUSTICE LEGAL FOUNDATION
IN SUPPORT OF PETITIONER

INTEREST OF AMICUS CURIAE
The Criminal Justice Legal Foundation (CJLF)1 is a
non-profit California corporation organized to participate in litigation relating to the criminal justice system
as it affects the public interest. CJLF seeks to bring the
constitutional protection of the accused into balance
with the rights of the victim and of society to rapid,
efficient, and reliable determination of guilt and swift
execution of punishment.

1. Counsel for petitioner has filed a blanket consent. Counsel for
respondent has consented to the filing of this brief.
The parties have consented to the filing of this brief. No
counsel for a party authored this brief in whole or in part. No
counsel, party, or any person or entity other than amicus
curiae CJLF made a monetary contribution to its preparation
or submission.

2

In this case, the Sixth Circuit refused to give any
deference to the Michigan Supreme Court’s wellreasoned determination that Davenport’s partial
shackling at trial was harmless error. Instead, the Sixth
Circuit applied the test from Brecht v. Abrahamson, 507
U. S. 619 (1993), to substitute its own opinion for that
of the state court to find that the complained-of error
caused Davenport “actual prejudice” and was therefore
not harmless. The Sixth Circuit’s “Brecht-only” approach ignores the clear limitations imposed by the
Antiterrorism and Effective Death Penalty Act of 1996
and this Court’s precedents and is contrary to the
interests CJLF was formed to protect.
SUMMARY OF FACTS AND CASE
Ervine Lee Davenport was convicted by a Michigan
jury of first-degree murder for the choking death of
Annette White. App. to Pet. for Cert. 2a-3a. During the
trial, Davenport was partially shackled. Id., at 5a. On
direct appeal, Davenport argued that his partial shackling at trial was unconstitutional. Id., at 6a. The Michigan Court of Appeals agreed with Davenport, but found
that he suffered no prejudice requiring reversal and
affirmed. Ibid. The Michigan Supreme Court reversed
and remanded to the trial court for an evidentiary
hearing to determine if the jury saw Davenport in
shackles. Ibid.2 If yes, the trial court was to determine
if the prosecution could “ ‘demonstrate beyond a
reasonable doubt that the shackling error did not
contribute to the verdict ....’ ” Ibid. (citing Deck v.
Missouri, 544 U. S. 622, 635 (2005)).

2. “Specifically, the court held that [Davenport] ‘should have been
permitted to develop the record on the issue of whether his
shackling during trial prejudiced his defense.’ ” Id., at 79a.

3

On remand, all 12 jurors testified at the evidentiary
hearing. Id., at 6a. Every juror testified that Davenport’s partial shackling did not affect their deliberations. Id., at 7a. After the hearing, the trial court ruled
that the prosecution “proved beyond a reasonable doubt
that the shackling did not affect the jury’s verdict.”
Ibid. The Michigan Court of Appeals affirmed. Id., at
95a-100a. The Michigan Supreme Court denied discretionary review stating that although “the Court of
Appeals erroneously failed to consider defendant’s claim
in light of ... [Holbook v. Flynn] ..., the error was
harmless under the facts of this case.” Id., at 93a-94a.
Davenport subsequently filed a petition for habeas
corpus under 28 U. S. C. § 2254 in the U. S. District
Court. Id., at 8a. Because Davenport’s shackling claim
had been addressed by the state court, a magistrate
judge analyzed it pursuant to the provisions of the
Antiterrorism and Effective Death Penalty Act of 1996
(AEDPA). Id., at 81a (applying 28 U. S. C. § 2254(d)(1),
(2)). The judge recommended denying habeas relief,
finding that the state court’s harmlessness determination was “neither contrary to, nor involve[d] an unreasonable application of clearly established federal law.”
Id., at 91a. The District Court adopted the magistrate’s
recommendation in its entirety and denied habeas
relief. Id., at 9a.
On appeal, a divided panel of the Sixth Circuit
reversed, implying that the District Court applied the
incorrect standard for assessing harmless error. See id.,
at 2a-3a. The majority found that Brecht v. Abrahamson, 507 U. S. 619 (1993), not AEDPA, supplies the
correct standard of review. Based on Brecht alone, the
majority held that the shackling error was not harmless
and granted Davenport a conditional writ of habeas
corpus that would result in his release from prison
unless the state of Michigan retried him within 180

4

days. App. to Pet. for Cert. 38a.3 Judge Readler dissented. Id., at 39a. In his opinion, when a federal
habeas court is reviewing a state court’s harmlessness
determination, the habeas court must apply both
AEDPA and Brecht when granting habeas relief. Id., at
58a-59a.
The Michigan Attorney General’s Office filed a
petition for a rehearing en banc. Id., at 101a. The Sixth
Circuit denied rehearing by an 8-7 vote. Id., at 102a.
Judges Griffin and Thapar (joined by five other judges)
provided separate written dissents from the denial.
Both rejected the “Brecht-only” approach utilized by
the panel majority. Id., at 117a-118a, 123a. Further,
both dissenting Judges posited that a state court’s
harmless error determination is entitled to AEDPA
deference, and similar to Judge Readler, opined that
before a federal court can grant habeas relief, it must
analyze the case pursuant to both AEDPA and Brecht.
Id., at 117a, 119a. This Court granted the Michigan
Attorney General’s petition for certiorari on April 5,
2021.
SUMMARY OF ARGUMENT
State courts and federal courts share a coequal duty
to adjudicate questions of federal law. State courts rule
on many constitutional claims while adjudicating
criminal cases and are competent to decide federal
questions. If a state prisoner files a petition for a writ of
habeas corpus claiming constitutional error in federal
court, he or she is entitled to relief only if the error is
not harmless.
3. On February 1, 2021, this Court granted the state of
Michigan’s application to stay the mandate of the Sixth Circuit
pending resolution of this case.

5

AEDPA requires the federal court to give great
deference to the state court’s resolution of federal law,
which includes a finding of harmless error. Brecht,
which predates AEDPA, contemplates an independent
determination by a federal habeas court without
deference to the state court’s harmlessness determination. Davis v. Ayala confirmed that both AEDPA and
Brecht come into play when a federal court is reviewing
a state court’s harmless error determination.
Because AEDPA was enacted to reduce delay and is
a prerequisite to habeas relief under this Court’s
precedents, the habeas court must review the state
court’s determination of harmlessness for reasonableness under its provisions first. If the habeas petitioner
satisfied the demands of AEDPA at the threshold, he or
she is not automatically entitled to relief, but rather
Brecht must be applied. Thus, if a federal habeas court
is going to grant relief, both AEDPA and Brecht must
be addressed. It was erroneous for the Sixth Circuit to
skip over the demands of AEDPA and jump straight to
Brecht to grant relief.
ARGUMENT
I. State courts and federal courts share
jurisdiction over federal questions and
their judgments are entitled to
mutual respect from the other.
A. The Coequal State Courts.
State governments have the primary authority to
enact, enforce, and administer their own criminal laws.
Engle v. Isaac, 456 U. S. 107, 128 (1982). “Our Constitution and laws surround the trial with a multitude of
protections for the accused.” Id., at 127. As a result,
adjudicating criminal cases requires state court judges

6

to rule on scores of federal constitutional claims. Thus,
it is no secret that state courts “hold the initial responsibility for vindicating constitutional rights.” Id., at
128.
“The relationship between the state courts and the
federal courts is one aspect of the intricate form of
government created by the Constitution.” Scheidegger,
Habeas Corpus, Relitigation, and the Legislative Power,
98 Colum. L. Rev. 888, 898 (1998). The Framers created
only one Supreme Court which alone has appellate
jurisdiction over both state and federal courts. See U. S.
Const., Art. III, § 1; Atlantic Coast Line R. Co. v.
Locomotive Engineers, 398 U. S. 281, 285-286 (1970).
Because this Court is the only federal court with
appellate jurisdiction to directly review questions of
federal law arising from state court decisions, if a state
court decision on a federal question is challenged this
Court alone has the power to review the question de
novo. Atlantic Coast Line R. Co., supra, at 286; see also
Scheidegger, supra, at 892.
Each state retained the reserved power to establish
and maintain its own judicial system, while Congress
was given the express authority to “ordain and establish” lower federal courts. See U. S. Const., Amend. X;
U. S. Const., Art. III, § 1. Both systems share jurisdiction over federal questions and both share a constitutional obligation to “guard, enforce, and protect every
right granted or secured by the Constitution.” Robb v.
Connolly, 111 U. S. 624, 637 (1884); Burt v. Titlow, 571
U. S. 12, 19 (2013); Caspari v. Bohlen, 510 U. S. 383,
395 (1994). The two judicial systems operate independent of one another, yet their “rank and authority ... are
equal.” Kline v. Burke Constr. Co., 260 U. S. 226, 235
(1922).
This Court has reiterated time and again that “state
courts have inherent authority, and are thus presump-

7

tively competent, to adjudicate” federal questions.
Tafflin v. Levitt, 493 U. S. 455, 458-459 (1990). “State
courts are coequal parts of our national judicial system
and give serious attention to their responsibilities for
enforcing the commands of the Constitution.” Sawyer
v. Smith, 497 U. S. 227, 241 (1990); see also Woodford
v. Visciotti, 537 U. S. 19, 24 (2002) (per curiam).
Very early, Congress enacted the Full Faith and
Credit Act to provide that
“state court judgments have the same force as res
judicata in every court in America as they have in
the state’s own courts.... [This] Court has consistently required the federal courts to respect final
state judgments, regardless of whether the issue is
one of state or federal law and regardless of whether
the federal court agrees with the state court’s
decision. The only exceptions are those that Congress has made.” Scheidegger, 98 Colum. L. Rev., at
912.
B. State Courts and Harmless Error.
In this case, the 6'5'', 260-pound Davenport admitted
to strangling 5'2'', 100-pound Annette White to death.
App. to Pet. for Cert. 120a. At trial, Davenport claimed
he acted in self-defense. Ibid. It was his contention that
while the two of them were driving high on crack
cocaine, they got into an argument upon which White
pulled out a box cutter. While continuing to drive,
Davenport claimed he grabbed White by the neck and
pinned her against the seat until she became unconscious. Ibid. He then proceeded to dump White’s
partially nude body face down in a field, drive to her
house, eat her food, steal her stereo, and meet up with
friends to smoke more crack cocaine. Id., at 120a-121a.

8

A medical examiner testified at trial that it would
have taken White about 30-40 seconds to pass out, and
at least four minutes for her to die. Id., at 120a. The
jury rejected Davenport’s claim of self-defense and
convicted him of first-degree murder. Id., at 121a.
On direct appeal, Davenport argued that his federal
due process rights were violated because he was partially shackled at trial and the trial court made no
findings of necessity. Id., at 5a. As a general rule, a
criminal defendant has the right to be unrestrained
during the guilt and penalty phases of his or her trial.
Deck v. Missouri, 544 U. S. 622, 633 (2005). The rule,
however, is not absolute. Ibid. In certain situations, a
judge may, on a case-by-case basis and in his or her
discretion, “take account of special circumstances,
including security concerns, that may call for shackling.” Ibid.
When a defendant is shackled without “adequate
justification” at trial, he or she is not entitled to an
automatic reversal of his or her conviction on appeal.
See id., at 635; see also Chapman v. California, 386
U. S. 18, 21-22 (1967). Like most federal constitutional
errors, a shackling error is subject to harmless error
review. Deck, 544 U. S., at 635; see also Arizona v.
Fulminante, 499 U. S. 279, 306 (1991). This is because
this
“Court has been faithful to the belief that the
harmless-error doctrine is essential to preserve the
‘principle that the central purpose of a criminal trial
is to decide the factual question of the defendant’s
guilt or innocence, and promotes public respect for
the criminal process by focusing on the underlying
fairness of the trial rather than on the virtually
inevitable presence of immaterial error.’ ”
Fulminante, supra, at 308 (quoting Delaware v. Van
Ardsall, 475 U. S. 673, 681 (1986)).

9

Cases involving “trial errors,” like the visible
shackling of a defendant, occur during the presentation
of the case and can be assessed in the context of other
evidence to determine whether the error “was harmless
beyond a reasonable doubt.” Fulminante, 499 U. S., at
307-308. This Court held as much in Deck, a case that
came to this Court on direct review. In that case, this
Court held that when a defendant is shackled in the
presence of the jury “without adequate justification,”
“[t]he State must prove ‘beyond a reasonable doubt
that the [shackling] error complained of did not contribute to the verdict obtained.’ ” Ibid. (quoting Chapman,
386 U. S., at 24). In this case, the Michigan Supreme
Court relied on Deck when it remanded Davenport’s
case to the trial court for an evidentiary hearing to
address whether Davenport’s partial shackling was
harmless error. People v. Davenport, 488 Mich. 1054,
794 N. W. 2d 616 (2011).
Neither party disputes that Davenport’s partial
shackling at trial was error. Brief for Petitioner 38. The
sole issue addressed by the Michigan courts since
Davenport’s initial appeal in 2010 has been whether the
shackling error was harmless beyond a reasonable
doubt. App. to Pet. for Cert. 95a-96a. This Court
understands that “state courts often occupy a superior
vantage point from which to evaluate the effect of trial
error.” Brecht v. Abrahamson, 507 U. S. 619, 636
(1993). Eleven Michigan judges have concluded after
thoroughly evaluating the details of Davenport’s case
that his partial shackling at trial was harmless error
that did not affect his guilty verdict “in any way.” App.
to Pet. for Cert. 98a.

10

II. AEDPA demands deference to be given
to federal claims adjudicated on the merits
in state court.
A. Collateral Review and Harmless Error.
Direct appellate review is the primary method of
challenging a criminal conviction. Brecht v. Abrahamson, 507 U. S. 619, 633 (1993). “ ‘When the process of
direct review ... comes to an end, a presumption of
finality and legality attaches to the conviction and
sentence.’ ” Ibid. (quoting Barefoot v. Estelle, 463 U. S.
880, 887 (1983)). Once all avenues of relief on direct
review have been exhausted, a prisoner may continue to
challenge his or her conviction via habeas corpus. A
prisoner in custody pursuant to the judgment of state
court may seek a writ of habeas corpus in federal court
only on the ground that he or she “is in custody in
violation of the Constitution or laws or treaties of the
United States.” 28 U. S. C. § 2254(a).
“[C]ollateral review serves the important function of
correcting constitutional defects which cannot be
corrected on [direct] appeal. These include claims that
require for their decision facts outside the appellate
record, such as ineffective assistance of counsel.”
Scheidegger, Habeas Corpus, Relitigation, and the
Legislative Power, 98 Colum. L. Rev. 888, 940 (1998).
As this Court is well aware, however, “collateral review
is different from direct review.” Brecht, 507 U. S., at
633. The federal habeas court’s role is “ ‘ secondary and
limited’ ” and it is not a forum “ ‘in which to relitigate
state trials.’ ” Ibid. (quoting Barefoot, supra, at 887).
In 1996, Congress’s enactment of AEDPA created “a
comprehensive system for addressing federal habeas
claims brought by state prisoners.” Edwards v. Vannoy,
593 U. S. __, 141 S. Ct. 1547 (2021) (Thomas J., concurring) (slip. op., at 4). The statute “places a new con-

11

straint on the power of a federal habeas court to grant
a state prisoner’s application for a writ of habeas corpus
with respect to claims adjudicated on the merits by a
state court.” Williams v. Taylor, 529 U. S. 362, 412
(2000); see also Woodford v. Garceau, 538 U. S. 202,
206 (2003). As a general rule, a federal habeas court is
prohibited from granting relief “with respect to any
claim that was adjudicated on the merits in State court
... unless the adjudication of the claim—(1) resulted in
a decision that was contrary to, or involved an unreasonable application of, clearly established Federal law”
as determined by this Court. 28 U. S. C. § 2254(d)(1)
(emphasis added). AEDPA imposes a partial, not
complete, “bar on federal-court relitigation of claims
already rejected in state proceedings.” Harrington v.
Richter, 562 U. S. 86, 102 (2011). The exception that
makes the bar less than complete, though, “is difficult
to meet ... because it was meant to be.” Ibid. “AEDPA
erects a formidable barrier to federal habeas relief for
prisoners whose claims have been adjudicated in state
court.” Burt v. Titlow, 571 U. S., at 19; see also Greene
v. Fisher, 565 U. S. 34, 38 (2011).
Prior to AEDPA, federal habeas courts owed no
deference to state court determinations of federal law
and could grant a state prisoner’s habeas petition if the
federal habeas “court were to conclude in its independent judgment that the ... state court had erred on a
question of constitutional law....” Williams, 529 U. S.,
at 402 (opinion of O’Connor, J.); see also Dodson,
Habeas Review of Perfunctory State Court Decisions on
the Merits, 29 Am. J. Crim. L. 223, 226 (2002). This
lack of required deference was at play in Brecht—a preAEDPA case.
Because the harmless error doctrine is also applicable on federal habeas review of state court judgments,
in Brecht, this Court was tasked with establishing the

12

appropriate standard of review for habeas courts to
apply when evaluating whether a state prisoner’s claim
of constitutional error was harmless. 507 U. S., at 633.4
This Court held that the Chapman standard (harmless
beyond a reasonable doubt) that is applicable to cases
on direct review is not the standard to be applied on
federal habeas review. On de novo review, federal courts
were permitted to give no deference to the state court’s
harmlessness determination and to decide from scratch
whether the claimed error “ ‘had [a] substantial and
injurious effect or influence in determining the jury’s
verdict.’ ” Id., at 637 (quoting Kotteakos v. United
States, 328 U. S. 750, 776 (1946)). “Under this standard, habeas petitioners may obtain plenary review of
the constitutional claims, but they are not entitled to
habeas relief based on trial error unless they can
establish that it resulted in ‘actual prejudice.’ ” Brecht,
507 U. S., at 637; see also Calderon v. Coleman, 525
U. S. 141, 145-146 (1998).
Congress enacted AEDPA three years after Brecht
was decided. However, Brecht remains good law and
was not “overruled” by AEDPA. See Fry v. Pliler, 551
U. S. 112, 119-120 (2007); see also Davis v. Ayala, 576
U. S. 257, 260 (2015) (stating its holding under both
Brecht and § 2254(d)). The question that has confused
federal habeas courts is how to apply these two standards when addressing harmless error. Is a state court’s
“harmless beyond a reasonable doubt” determination
entitled to AEDPA deference? Can a habeas court skip
straight to Brecht and, on de novo review, determine if
the error caused “actual prejudice”? Or must a federal
habeas court apply both? The answers to these ques-

4. Brecht noted that Congress had the ultimate authority to
specify which errors would be considered harmless on habeas
corpus, but until it did, this Court would fill the gap. Ibid.

13

tions depend largely on how the habeas case arrives at
the federal court from the state court. The holdings, if
not the dicta, of this Court’s precedents guide the
answers to all three questions.
In Mitchell v. Esparza, 540 U. S. 12, 18 (2003) (per
curiam), this Court held that when a state court determines that a constitutional error is harmless beyond a
reasonable doubt under the Chapman standard,
“habeas relief is appropriate only if the [state court]
applied harmless-error review in an ‘objectively unreasonable’ manner.” This standard requires the habeas
petitioner to “show that the state court’s ruling on the
claim being presented in federal court was so lacking in
justification that there was an error well understood
and comprehended in existing law beyond any possibility for fairminded disagreement.” Harrington v. Richter, 562 U. S. 86, 103 (2011); see also Bobby v. Dixon,
565 U. S. 23, 24 (2011) (per curiam); Lockyer v. Andrade, 538 U. S. 63, 75-76 (2003).
Esparza thus establishes that when a state court
determines that a constitutional error is harmless
under Chapman, AEDPA provides a threshold determination to be applied by federal courts considering a
collateral attack on that judgment. In making that
determination, the federal habeas court is “limited to
the record that was before the state court that adjudicated the claim on the merits.” Cullen v. Pinholster,
563 U. S. 170, 180-181 (2011).
Because Esparza found that the habeas petitioner
did not prove that the state court’s harmlessness
determination satisfied the strict mandate of
§ 2254(d)(1), this Court held that habeas relief was not
warranted and did not address Brecht. Esparza, 540
U. S., at 18-19.

14

In Fry v. Pliler, supra, this Court was presented
with a situation where the state court did not make a
harmless error determination. Unlike in Esparza, the
constitutional error was first recognized by the federal
habeas court. On federal habeas review, the district
court found that the state court’s failure to recognize
the constitutional error itself was “an unreasonable
application of clearly established law,” but found that
the error was not prejudicial under Brecht and was thus
harmless. Fry, 551 U. S., at 115-116. The Ninth Circuit
affirmed. The question presented to this Court was
“whether a federal habeas court must assess the
prejudicial impact of constitutional error in a
state-court criminal trial under the ‘substantial and
injurious effect’ standard set forth in [Brecht], when
the state appellate court failed to recognize the error
and did not review it for harmlessness under the
‘harmless beyond a reasonable doubt’ standard set
forth in [Chapman].” Id., at 114 (emphasis added).
In other words, “whether Brecht or Chapman provides
the appropriate standard of review when constitutional
error in a state court trial is first recognized by a federal
court.” Id., at 120 (emphasis added).
Because in Esparza there was a state court harmlessness determination, and in Fry there was not, the
habeas petitioner in Fry argued that the standard the
habeas court must apply on federal habeas review
“must change.” Id., at 118. This Court disagreed,
finding that Brecht’s adoption of a “less onerous standard on collateral review of state-court criminal judgments” was based on principles of finality, comity,
sovereignty, and federalism. Id., at 117. Because those
concerns remain static in all collateral review cases, this
Court found “it would be illogical to make the standard
of review turn upon” whether the state court applied
Chapman. Ibid.

15

Fry then turned his attention back to Esparza and
argued that AEDPA “as interpreted in Esparza, eliminates the requirement that a petitioner also satisfy
Brecht’s standard.” Id., at 119. This Court again
disagreed stating, “[g]iven our frequent recognition
that AEDPA limited rather than expanded the availability of habeas relief, it is implausible that, without
saying so, AEDPA replaced the Brecht standard of
‘ “actual prejudice,” ’ with the more liberal AEDPA/
Chapman standard ....” Id., at 119-120 (citations
omitted).
The Fry opinion provided no explanation for its
assertion that the “AEDPA/Chapman test” is invariably
“more liberal” than the Brecht test. Certainly Chapman
by itself is more favorable to the defendant and produces more reversals on direct appeal than the Kotteakos standard, on which Brecht is based, would provide.
However, it is by no means certain that Chapman in
combination with § 2254(d) will invariably be more
favorable to the defendant than the Brecht standard
applied de novo would be.
Such an assumption fails to take into account the
breadth of disagreement among reasonable jurists that
comes under § 2254(d)’s “unreasonable application”
standard. It is not uncommon for different judges to
view the significance of events at trial very differently.
For example, just recently in Whatley v. Warden, 593
U. S. __, 141 S. Ct. 1299 (No. 20-363, April 19, 2021), a
majority of the court of appeals thought that a certain
shackling of the defendant was “ ‘trivial,’ ” while Justice
Sotomayor thought this amounted to “disregard [of]
this Court’s clear precedent.” Id., 141 S. Ct., at 1301,
1303-1304 (slip op., at 4, 9) (Sotomayor, J., dissenting
from denial of certiorari). However, when § 2254(d)
applies, i.e., when the state court decided the issue on
the merits, habeas relief may not be granted unless the

16

federal court finds the issue to be “beyond any possibility for fairminded disagreement.” Richter, 562 U. S., at
103.
Given the very broad range of disagreement that
comes under the big tent of § 2254(d) as explained in
Richter, it is not beyond the realm of possibility that a
judge might believe that a claim met the Brecht test yet
acknowledge that a fairminded judge could conclude
that it did not meet the Chapman test. The second
judge might disagree very strongly with the first, but
that is not enough to exceed the bounds of fairmindedness. For that reason, the next sentence of Fry is not
only obiter dictum, but ill-advised dictum: “That said,
it certainly makes no sense to require formal application of both tests (AEDPA/Chapman and Brecht) when
the latter obviously subsumes the former.” Fry, 551
U. S., at 120.
This statement is dictum because AEDPA/Chapman
only applies when the state court has decided the
Chapman issue on the merits. There was no such
decision in Fry. The AEDPA standard properly applied
in that case to the state court’s decision that there was
no constitutional error. The question of how to apply
the two standards when the state court has considered
the Chapman issue on the merits was not before the
Court, and the Court did not fully “canvas the considerations,” rendering the comment dictum. See Kirtsaeng
v. John Wiley & Sons, Inc., 568 U. S. 519, 548 (2013).5
Esparza held that Chapman holdings of harmless
error are subject to the AEDPA standard. Fry held that
a petitioner cannot obtain relief on a habeas corpus
claim unless he clears the Brecht hurdle, even if the

5. “Is the Court having once written dicta calling a tomato a
vegetable bound to deny that it is a fruit forever after?” Ibid.

17

state court decision is found to be unreasonable for
AEDPA in some respect. Both hurdles remain in effect.
The statement in Fry that clearing one necessarily
clears the other is dictum and subject to reconsideration. The issue was presented again in Davis v. Ayala,
but it was not entirely cleared up.
B. Davis v. Ayala.
In Ayala, this Court confirmed that Brecht and
AEDPA are both very much alive when a federal habeas
court is reviewing a state court’s determination (or lack
thereof) of harmless error. In that case, the Ninth
Circuit applied a “Brecht-only” approach to the state
prisoner’s federal claims, found on de novo review that
the constitutional error complained of was not harmless, and granted habeas relief to a triple murderer. 576
U. S., at 266. This Court reversed.
This Court first reaffirmed that a federal habeas
petitioner must “meet the Brecht standard” to obtain
relief. Id., at 268. This Court then acknowledged Fry’s
“subsumes” statement but clarified that Fry “did not
hold—and would have had no possible basis for
holding—that Brecht somehow abrogates the limitation
on federal habeas relief that § 2254(d) plainly sets out.”
Ibid. “Section 2254(d) demands an inquiry into whether
a prisoner’s ‘claim’ has been ‘adjudicated on the merits’
in state court; if it has, AEDPA’s highly deferential
standard kicks in.” Id., at 269 (emphasis added).
This Court then found that the habeas petitioner
was required to “show that the state court’s decision to
reject his claim ‘was so lacking in justification that
there was an error well understood and comprehended
in existing law beyond any possibility of fairminded
disagreement.’ ” Id., at 269-270 (quoting Richter, supra,
562 U. S., at 103).

18

Curiously, despite acknowledging that AEDPA
“ ‘sets forth a precondition to the grant of habeas
relief,’ ” and that the habeas petitioner was required to
show that the state court’s decision was unreasonable
under AEDPA’s terms, this Court concluded, “[i]n sum,
a prisoner who seeks federal habeas corpus relief must
satisfy Brecht, and if the state court adjudicated his
claim on the merits, the Brecht test subsumes the
limitations imposed by AEDPA.” Id., at 268, 270. This
Court then appears to apply the two standards in
tandem to hold that the Ninth Circuit’s failure to apply
AEDPA’s deference to the state court’s harmless error
determination was erroneous and that under Brecht
there was “no basis for finding Ayala suffered actual
prejudice.” Id., at 268, 286. That is, Ayala could not
clear either hurdle.
No doubt, most claims of error will clear both
hurdles or neither. But great caution is in order before
announcing that a claim that clears one hurdle will
necessarily clear another. There is a set of cases where
the state court’s application of Chapman was unreasonable. There is a set of cases where the petitioner establishes prejudice under the Brecht standard applied de
novo. The two sets largely overlap, but can anyone say
with confidence that one set is necessarily a proper
subset of the other?
That might have been the case if Congress had
enacted a narrower rule, but it chose to enact a broad
one. Although often referred to as a standard of review,
§ 2254(d) is in reality a “modified res judicata rule,” in
the same category as the successive petition rule. See
Richter, 562 U. S., at 102. The prior state adjudication
of the issue precludes habeas relief unless an exception
applies, and the relevant exception is an extremely high
standard. Brief for Petitioner 23-24.

19

As the State of Michigan points out, the Sixth
Circuit’s “Brecht-only” approach in this case ignores
Ayala’s mandate when it refused to apply AEDPA
deference to the Michigan state court’s harmless error
determination. Brief for Petitioner 47. The Sixth
Circuit erroneously believed that “Brecht handles the
work of both tests” because “it is significantly harder
for a habeas petitioner to meet Brecht’s actual prejudice
standard than Chapman’s defendant-friendly standard
....” That is obviously true for Chapman applied de
novo. It is not so obvious for another court’s Chapman
holding viewed through AEDPA’s highly deferential
lens. Cf. App. to Pet. for Cert. 17a. In the Sixth Circuit’s
opinion, because the “Brecht test subsumes the limitations imposed by AEDPA,” it could skip straight to
Brecht. Id., at 22a.
According to the Sixth Circuit, when “a state court
finds an error harmless under Chapman and the
defendant is later able to surmount the imposing Brecht
hurdle, the state court’s Chapman analysis (even
though insulated by AEDPA deference) is necessarily
objectively unreasonable under Harrington v. Richter.”
Id., at 17a. In other words, if Brecht is satisfied, then
the state court’s Chapman determination is automatically unreasonable without further discussion. This was
wrong under the holding of Ayala. Courts cannot take
a “Brecht-only” approach. If a federal court were
permitted to take a “Brecht-only” approach, then it
would be given a clean slate to base its holding on the
entire federal court record, which is contrary to
AEDPA’s mandate that a federal court’s extremely
deferential review on habeas is “limited to the record
that was before the state court that adjudicated the
claim on the merits.” Cullen v. Pinholster, 563 U. S., at
180-181.

20

Fry’s statement that “formal” application of both
tests is not required is difficult to square with Ayala’s
recognition that the statute demands an AEDPA
inquiry. Ayala, 576 U. S., at 269. To the extent of an
inconsistency, the more recent decision, Ayala, should
control.
The proper procedure in harmless error cases,
amicus submits, is a special case of the general rule
proposed in Part III, infra. There should be a general
standard for order of decision in state-prisoner habeas
cases, and we address that issue in the next part.
III. Section 2254(d) should be regarded as a
threshold question and decided at the
beginning of the habeas case, absent a strong
reason in judicial efficiency to do otherwise.
A. Order of Decision Rules.
The party seeking relief often must clear multiple
hurdles on the path to a final judgment. Sometimes
there are fixed rules determining the order in which
issues must be addressed, and sometimes there are not.
The most rigid order of decision rule is the requirement that a court establish its own jurisdiction before
it decides anything else. This rule is “ ‘inflexible and
without exception.’ ” Steel Co. v. Citizens for a Better
Environment, 523 U. S. 83, 95 (1998) (quoting Mansfield, C. & L. M. R. Co. v. Swan, 111 U. S. 379, 382
(1884)). The reason for such rigidity goes to the fundamental nature of the judicial power. “For a court to
pronounce upon the meaning or the constitutionality of
a state or federal law when it has no jurisdiction to do
so is, by very definition, for a court to act ultra vires.”
Id., at 101-102. Between subspecies of jurisdiction,
though, there is “no unyielding jurisdictional hierar-

21

chy.” A court can decide it has no personal jurisdiction
over the defendant without deciding if it has jurisdiction of the subject matter. Ruhrgas AG v. Marathon Oil
Co., 526 U. S. 574, 578 (1999).
Teague v. Lane, 489 U. S. 288, 316 (1989) (plurality), held that when a habeas corpus petitioner seeks
relief under a proposed new rule, the court must first
decide if that rule, if created, would apply retroactively
to the petitioner and, if not, decline to address the
merits. See also Penry v. Lynaugh, 492 U. S. 302, 313
(1989) (non-announcement rule endorsed in opinion of
the Court). In Caspari v. Bohlen, 510 U. S. 383, 389
(1994), the Court described Teague as a “threshold
question in every habeas case.”
Teague’s order of decision rule “ ‘is rooted in our
reluctance to decide constitutional questions unnecessarily.’ ” 489 U. S., at 316 (quoting Bowen v. United
States, 422 U. S. 916, 920 (1975)). That is, it is consistent with the doctrine summarized in Justice
Brandeis’s oft-cited concurrence in Ashwander v. TVA,
297 U. S. 288, 347 (1936): “The Court will not pass
upon a constitutional question although properly
presented by the record, if there is also present some
other ground upon which the case may be disposed of.”
Yet, in the qualified immunity area, Saucier v. Katz,
533 U. S. 194 (2001), announced a rule that stood
Ashwander on its head. The “threshold question”
according to Saucier was the constitutional question:
“do the facts alleged [if true] show the officer’s conduct
violated a constitutional right? This must be the initial
inquiry.” Id., at 201. Only after answering that question
could the court consider whether the right was sufficiently clearly established so as to defeat the qualified
immunity defense. See ibid.

22

The Saucier rule met with intense criticism and was
abandoned after only eight years. Part of the problem
was practical.
“[T]he rigid Saucier procedure comes with a price.
The procedure sometimes results in a substantial
expenditure of scarce judicial resources on difficult
questions that have no effect on the outcome of the
case. There are cases in which it is plain that a
constitutional right is not clearly established but far
from obvious whether in fact there is such a right.”
Pearson v. Callahan, 555 U. S. 223, 236-237 (2009).
Another part of the problem was a matter of principle. Being backwards from the Teague rule, Saucier was
also backwards from the Ashwander principle. See id.,
at 241 (citing Ashwander).
Pearson notes two other situations where this Court
has declined to specify an order of decision. See id., at
241-242. Strickland v. Washington, 466 U. S. 668, 687
(1984), established a two-prong test for ineffective
assistance: deficient performance and resulting prejudice. Courts may address them in either order and stop
after finding one requirement not met. See id., at 697.
United States v. Leon, 468 U. S. 897 (1984), established
the good faith exception to the Fourth Amendment
exclusionary rule for searches with a warrant. The
validity of the warrant and the good faith of reliance on
it may be decided in either order. See id., at 924-925.
Neither example implicates the Ashwander principle.
Strickland requires both prongs to make out a Sixth
Amendment violation. See 466 U. S., at 687. The
exclusionary rule has, rightly or wrongly, been considered a constitutional rule at least since Mapp v. Ohio,
367 U. S. 643 (1961), so both issues in Leon are constitutional.

23

In summary, deciding whether to establish a fixed
order of decision of issues involves several principles.
First and foremost is the legitimacy of the exercise of
judicial power in the case. After that, the Ashwander
principle of not deciding constitutional questions
unnecessarily must be considered. Finally, the efficiency of disposing of cases on easily decided questions
without need to decide more difficult ones must be
considered.
B. Order of Decision and AEDPA.
This case, unlike the cases above, involves the
implementation of a statute, and so the statutory
purpose must be considered. “AEDPA’s acknowledged
purpose [is] ‘reduc[ing] delays in the execution of state
and federal criminal sentences.’ ” Schriro v. Landrigan,
550 U. S. 465, 475 (2007) (quoting Woodford v. Garceau, 538 U. S. 202, 206 (2003)). This purpose adds
additional weight to the interest in judicial efficiency.
For the vast majority of claims, the AEDPA
§ 2254(d) question should be addressed before the
merits of the claim. First, if the claim can be denied on
that basis without addressing an underlying constitutional question, the Ashwander principle has been
followed. Second, and of much greater practical importance, disposing of claims under § 2254(d) at the threshold will generally be much more efficient and result in
substantial reduction of delay, the core purpose of
AEDPA.
Under Cullen v. Pinholster, 563 U. S. 170, 185
(2011), the § 2254(d)(1) question must be decided on the
state court record, and “evidence introduced in federal
court has no bearing on” the issue. If new evidence is
irrelevant, it follows that discovery is unnecessary.
Applying § 2254(d) at the threshold will winnow the
issues to those not decided on the merits by state

24

courts6 and those very few for which the exceptions of
that subdivision are met. It will winnow them before
any discovery or any evidentiary hearings, for a major
reduction in delay. For any claim where the state
asserts § 2254(d) and the petitioner seeks discovery or
an evidentiary hearing, decision of the § 2254(d) question before discovery should be mandatory in order to
carry out the purpose of the statute.
Harmless error questions, however, often do not
require any new facts and may be presented for decision
of the merits, as well as on § 2254(d), on the trial record
alone. Where that is true, there is no compelling efficiency argument for which prong to address first. The
Ashwander principle is not implicated, as neither
Brecht nor § 2254(d) is a constitutional rule.7 The
situation is therefore similar to Strickland v. Washington, 466 U. S., at 697. Petitioner must clear both
hurdles, and if the court decides that his inability to
clear one is more obvious than the other, the court can
deny relief on that one alone and leave the other
undecided. Section 2254(d) is a limitation on granting
relief, not denying it, and it need not be addressed if
relief is denied on another ground. See Berghuis v.
Thompkins, 560 U. S. 370, 390 (2010) (court may deny,
but not grant, on merits without resolving difficult
§ 2254(d) applicability question).
To grant relief, on the other hand, both requirements must be addressed. Section 2254(d) is a congressionally mandated prerequisite to habeas relief. If the
statute “demands an inquiry” as to whether it applies,

6. Most issues not decided by the state courts will be either
unexhausted or procedurally defaulted, and many of them can
be winnowed out at the threshold also.
7. See supra, at 12, n. 4.

25

see Ayala, 576 U. S., at 269, it surely demands an
answer as to whether either exception to its general
rule of issue preclusion has been met. If an exception is
met, that does not entitle the petitioner to relief. It
entitles him to have the claim decided on the merits in
federal court. See Brumfield v. Cain, 576 U. S. 305, 307
(2015). The merits include the prejudice requirement of
Brecht, which Fry established survived the enactment
of AEDPA intact. See supra at pp. 14-15. To the extent
that the dictum in Fry implies that a federal habeas
court can grant, rather than deny, relief without
addressing both prerequisites, it should be disapproved.
In practice, deciding both will not be a burden under
the circumstances presented here. Any judge reviewing
the trial record for a claim of error along with the state
court’s decision on the point will necessarily form an
impression of the existence of error, the presence or
absence of Brecht prejudice, and the reasonableness of
the state court decision all at the same time. If a federal
court is going to take the drastic action of negating a
final decision of the coequal state judiciary, a paragraph
on each of the conjunctive requirements for such an
action is not too great a burden.
In any case where the petitioner seeks to bolster his
Brecht claim with additional facts introduced for the
first time in federal court, the usual rule of addressing
the § 2254(d) question at the threshold should apply.
There is no need for discovery or a hearing of additional
facts if the claim can be denied on the state court record
under § 2254(d), and conducting such proceedings
unnecessarily is contrary to the core purpose of AEDPA
to reduce delay.
Because the Court of Appeals skipped over a statutory mandate entirely to grant relief, its decision was
erroneous. The District Court correctly applied Esparza
by denying relief upon finding that the requirement of

26

§ 2254(d)(1) was not met. There was no need to also
address Brecht.
CONCLUSION
The judgment of the Court of Appeals for the Sixth
Circuit should be reversed.
June, 2021
Respectfully submitted,
KYMBERLEE C. STAPLETON
Attorney for Amicus Curiae
Criminal Justice Legal Foundation

